<html>
<title> - PROPOSALS TO LIMIT ELIGIBILITY FOR VA COMPENSATION TO VETERANS WITH DISABILITIES DIRECTLY RELATED TO THE PERFORMANCE OF DUTY</title>
<body><pre>[Senate Hearing 108-722]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 108-722



                  PROPOSALS TO LIMIT ELIGIBILITY FOR 
                   VA COMPENSATION TO VETERANS WITH 
                 DISABILITIES DIRECTLY RELATED TO THE 
                          PERFORMANCE OF DUTY

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS

                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 23, 2003

                               __________

       Printed for the use of the Committee on Veterans' Affairs




 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                      U.S. GOVERNMENT PRINTING OFFICE

97-189 PDF                  WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001




                     COMMITTEE ON VETERANS' AFFAIRS


                 ARLEN SPECTER, Pennsylvania, Chairman

BEN NIGHTHORSE CAMPBELL, Colorado    BOB GRAHAM, Florida
LARRY E. CRAIG, Idaho                JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
JIM BUNNING, Kentucky                JAMES M. JEFFORDS, (I) Vermont
JOHN ENSIGN, Nevada                  DANIEL K. AKAKA, Hawaii
LINDSEY O. GRAHAM, South Carolina    PATTY MURRAY, Washington
LISA MURKOWSKI, Alaska               ZELL MILLER, Georgia
                                     E. BENJAMIN NELSON, Nebraska

      William F. Tuerk, Majority Chief Counsel and Staff Director
         Bryant Hall Minority Chief Counsel and Staff Director




                            C O N T E N T S

                              ----------                              

                           September 23, 2003

                                SENATORS

                                                                   Page

Specter, Hon. Arlen, U.S. Senator from Pennsylvania, Chairman....     1
Murray, Hon. Patty, U.S. Senator from Washington.................     6

                               WITNESSES

Principi, Hon. Anthony J., Secretary, U.S. Department of Veterans 
  Affairs; accompanied by Tim S. McLain, General Counsel, U.S. 
  Department of Veterans Affairs.................................     1
Bascetta, Cynthia A., Director, Education, Workforce, and Income 
  Security Issues, U.S. General Accounting Office................     8
    Prepared statement...........................................     9
Snook, Dennis W., Ph.D., Domestic Social Policy Division, 
  Congressional 
  Research Service...............................................    12
Olanoff, Mark H., Assistant Director, National Legislative 
  Commission, 
  The American Legion............................................    13
    Prepared statement...........................................    14
Cullinan, Dennis, Director, National Legislative Service, 
  Veterans of Foreign Wars.......................................    16
Surratt, Rick, Deputy National Legislative Director, Disabled 
  American 
  Veterans.......................................................    17
    Prepared statement...........................................    18
Blake, Carl, Associate Legislative Director, Paralyzed Veterans 
  of America.....................................................    22
Jones, Richard ``Rick'', National Legislative Director, American 
  Veterans (AMVETS)..............................................    23
    Prepared statement...........................................    24
Weidman, Rick, Director of Government Relations, Vietnam Veterans 
  of America.....................................................    26
    Prepared statement...........................................    27

                                APPENDIX

Graham, Hon. Bob, U.S. Senator from Florida, prepared statement..    29
Akaka, Hon. Daniel K., U.S. Senator from Hawaii, prepared 
  statement......................................................    30
Miller, Hon. Zell, U.S. Senator from Georgia, prepared statement.    30
Bunning, Hon. Jim, U.S. Senator from Kentucky, prepared statement    31

 
                  PROPOSALS TO LIMIT ELIGIBILITY FOR 
 VA COMPENSATION TO VETERANS WITH DISABILITIES DIRECTLY RELATED TO THE 
                          PERFORMANCE OF DUTY

                              ----------                              


                      TUESDAY, SEPTEMBER 23, 2003

                              United States Senate,
                            Committee on Veterans' Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:34 p.m., in 
room 
SR-418, Russell Senate Office Building, Hon. Arlen Specter, 
chairman of the committee, presiding.
    Present: Senators Specter and Murray.

           OPENING STATEMENT OF HON. ARLEN SPECTER, 
                 U.S. SENATOR FROM PENNSYLVANIA

    Chairman Specter. The Veterans' Affairs Committee will now 
proceed. We have called this hearing to examine a complex 
issue, which is now before the conference of the Armed Services 
Committee and the House counterpart, as to what should be done 
about the issue of concurrent receipts. The proposal has been 
made for an offset, which would be very problemsome for many in 
the military who are not retirees who have been getting 
compensation since 1924.
    We had scheduled this hearing for last Thursday and it was 
scheduled on an emergency basis, scheduled last Tuesday with 
only two days' notice because of the importance of the subject, 
and the hurricane interfered and we are now going to proceed.
    Our first witness is the distinguished Secretary of 
Veterans Affairs who is always available to this committee and 
we very much appreciate that. Of course, Secretary Principi, in 
the spirit of reciprocity, this committee is always available 
to you and I think it is a good team for the veterans of 
America.
    Without further ado, let us go right to the substance of 
the matter and hear from our Secretary, Anthony J. Principi.

    STATEMENT OF HON. ANTHONY J. PRINCIPI, SECRETARY, U.S. 
 DEPARTMENT OF VETERANS AFFAIRS; ACCOMPANIED BY TIM S. McLAIN, 
      GENERAL COUNSEL, U.S. DEPARTMENT OF VETERANS AFFAIRS

    Mr. Principi. Thank you, Mr. Chairman. I greatly appreciate 
the opportunity to discuss this very, very important issue with 
regard to concurrent receipt and consideration that has been 
given to whether we should change the basis for establishing 
service connection for VA benefits. I appreciate your 
leadership and holding this hearing on an expedited basis so 
that this issue can be considered, as it certainly impacts not 
only in the Department of Defense, but it impacts on the 
Department of Veterans Affairs and the men and women we have 
the privilege to serve.
    Let me start by saying, Mr. Chairman, that VA disability 
compensation is a very, very complex program and I have some of 
our experts here and they probably--it would take me a lifetime 
to learn what they have forgotten, so I am not truly an expert 
in every aspect of this program, but it is indeed complex, and 
fundamental changes to the foundation of complex programs are 
likely to have far-reaching and unpredictable effects.
    The current standard, service connection for every 
disability incurred or aggravated while on active duty, as you 
indicated, Mr. Chairman, dates back 80 years and reflects the 
24-by-7 nature of military duty. That was the way it was when I 
was on active duty, and it is certainly the way my two boys are 
bearing up under the current way we consider active duty when 
we call men and women into our armed forces. There is now no 
need to determine the cause of a disability if it occurred 
while you were in the military or a preexisting condition was 
aggravated.
    We don't have the data to provide you with specific 
predictions of how many veterans and survivors would be 
affected by a redefinition of the basis for service connection, 
but we can predict the outcomes would be widespread and have a 
dramatic effect on the lives of many of the affected veterans 
and their survivors.
    As you know, there are two separate systems of disability 
benefits for active duty service members and veterans, one 
operated by the Department of Defense and the other operated by 
my Department, the Department of Veterans Affairs. As I 
understand it, the proposal that was being looked at would 
leave intact the Title 10 Defense Department benefits, that is, 
severance pay or disability retirement even for veterans with 
disabilities that are determined not to be the result of 
performance of duty--an automobile accident, an off-duty 
accident. The Title 10 provisions would stay intact.
    The significant difference, however, is that unlike the VA 
disability program, DoD benefits vary with the service member's 
rank and length of service and may not always provide adequate 
support for every affected service member. Let me show you on 
this chart, if I may, Mr. Chairman.
    This is a comparison of Title 10 and Title 38 benefits, and 
for purposes of this comparison, we took an E-3, a private 
first class with two years of service, and an O-5, a lieutenant 
colonel, a commander in the Navy, with 18 years of service who 
were involved in an accident. For these purposes, we have an 
automobile accident. It could be any accident, but it's not 
considered to be performance of duty. And for further purposes, 
we considered that these service members, the private first 
class and the O-5, the lieutenant colonel, have a spouse and 
one dependent child.
    As you can see, these are the various benefits that are 
afforded either through Title 10 for DoD or Title 10XXVIII, 
VA--monthly compensation, vocational rehabilitation, priority 
health care, all the way down to an annual clothing allowance 
if you're disabled and need to have certain types of clothing.
    You can see under--for purposes of this example, we have a 
60 percent rating. The service member lost one leg above the 
knee in this accident. Under Title 10, the O-5, the officer 
with 18 years of service, will be eligible for a monthly 
compensation of $3,657 a month. The E-3 under the Department of 
Defense program will be eligible for $865 a month. And the VA, 
in these individuals chosen, the VA program, the benefit would 
be tax-free $1,011 a month. So you can see here that the O-5 
does better, so to speak, than the E-3.
    But if the VA was changed that this would not be considered 
performance of duty and no benefits would accrue, there would 
be no monthly compensation. So that would dramatically impact 
on the lower-ranking enlisted member.
    In addition, and very importantly, you can see that if the 
VA definition is changed so that this would not be compensable, 
but this is an off-duty automobile accident, the service 
member, both O-5 and E-3, would not be eligible for vocational 
rehabilitation, the opportunity to go to school, learn a new 
trade, a new vocation, get subsistence while they're trying to 
go to school. They would be eligible for priority health care 
under both DoD and VA. Of course, Tri-Care is available for the 
Defense member and their dependents. We do not have a Tri-Care 
program. We do not treat dependents.
    Survivor benefits, dependency and indemnity compensation, 
are available to dependents of the veteran. They would lose all 
of these benefits, of course, if there was a definition change, 
and veterans would lose such other benefits as the automobile 
allowance, civil service preference, on and on.
    Now, if you look at a more serious disability that would be 
rated at 100 percent, using both an O-5 again and an E-3, with 
a spouse and one child, you could see that under the DoD 
system, the O-5 would receive a monthly retirement benefit of 
$4,600 a month. The E-3, $1,082 a month. And if they chose to 
receive the VA benefits, it would be $2,943 a month tax-free.
    So if the VA system was changed and this automobile 
accident was not considered service connected, the O-5 would 
still certainly be ahead because the retirement for the O-5 
with 18 years of service is $4,621 a month. You can see what 
happens to the E-3. It would be very, very difficult to support 
a spouse and a child on basically $12,000 a year under the DoD 
program. It would be about a third of what they would get under 
the VA.
    So I think this clearly shows the difficulty of making 
changes and how it might impact, especially on the lower-rated 
enlisted people and, to a degree, the officers, as well. So I 
am concerned that DoD benefits might be reasonable for higher-
ranking individuals, but would provide a poor foundation for 
building a civilian life for the lower-ranking service members 
who comprise the bulk of the veteran population.
    A reform of this importance and this scope, I believe, is 
poorly suited to enactment without rigorous and comprehensive 
examination of policy alternatives, resolution of 
implementation issues, and careful consideration of the effects 
of drafting decisions on both the veterans and their survivors, 
spouses and children, and on the ability of VA and other 
agencies like the Office of Personnel Management for veterans' 
preference, the Department of Labor for employment benefits, 
and other State and local governments to administer the 
legislation fairly and effectively.
    At the same time, I do understand concerns that have been 
raised that current law compensates illnesses or injuries with 
no relationship to a veteran's military service. I recognize 
that the nature and origin of disabilities for which 
compensation is paid raises public policy issues.
    If the Congress desires to address these issues, including 
the integration of the VA and the DoD disability programs and 
the rationale for the two systems, I suggest that these 
questions be studied thoughtfully and deliberately, alternative 
answers identified, and consequences of those answers 
evaluated. I believe then that we would all, the VA and the 
Department of Defense and the Congress, both the Armed Services 
Committee and the Veterans' Affairs Committee, would have the 
data necessary to make considered public policy decisions with 
a reasonable assurance that it understands and accepts the 
consequence of those decisions.
    I also believe that the Congress was on the right path last 
year when it enacted the Combat-Related Special Compensation 
program, called CRSC. CRSC provides for additional benefits to 
disabled retirees awarded a Purple Heart or whose disability is 
the result of military operations--a training accident, 
instrumentality of war, aboard ship, or something along those 
lines. It ensures that they receive both their military 
retirement pay and their disability, tax-free disability 
compensation from the VA. Even though their disability did not 
disrupt their military careers and they were able to serve for 
20 years or more, it certainly focuses on the people who were 
in combat and whose injuries and disabilities were related to, 
whether it be combat operations or training accidents, friendly 
fire or whatever it might be.
    Could refinements to the CRSC program be made? I think the 
Congress could look at refinements. We are asking our Reserve 
and Guard to play a much more meaningful role in combat 
operations today and perhaps the CRSC program could be expanded 
to embrace more of the Reservists and Guardsmen. There is a 60 
percent rating threshold for non-combat injuries or illnesses. 
That could be addressed perhaps, to ensure that serious 
disabilities are being looked at and compensated fairly for 
those who are disabled retirees.
    So I do think there are things that perhaps can be explored 
by the Congress, but I do believe you were on the right path 
last year because you focused on the people whose injuries or 
illnesses were related to their combat or their training 
accidents.
    With that, Mr. Chairman and members of the committee, I 
thank you for the opportunity to testify today and I look 
forward to answering your questions.
    Chairman Specter. Mr. Secretary, working through just the 
very basics here, when you talk about concurrent receipts, you 
are talking about getting both retirement pay and disability 
for those who have served 20 years or more, are entitled to 
retirement, and they have some disability.
    Mr. Principi. That is correct.
    Chairman Specter. And at the present time, there is an 
offset unless the retiree has the disability for injury 
sustained in the line of duty. Is that all line of duty or only 
combat?
    Mr. Principi. No, it is--well, certainly there are two 
components to the CRSC program. The first component is anyone 
who has a Purple Heart is fully covered. Whether it is a ten 
percent disability or a 100 percent disability, they get both 
full military retirement pay and full VA disability 
compensation tax-free.
    The second component of this CRSC is what they call the 
``plus'' part. If you have a military-related disability rated 
60 percent or greater that was incurred in the performance of 
duty, and their criteria are spelled out, as a direct result of 
armed conflict, while engaged in hazardous service, in the 
performance of duty under conditions simulating war, which 
would be training, or through an instrumentality of war, aboard 
a ship, aboard a tank, then you would be covered, as well. So 
it is not just combat. It is performance of duty, as well. That 
is my understanding of how the law is being interpreted by the 
Defense Department.
    Chairman Specter. And on the proposed offset, there would 
be a change in the law which has been in existence since 1924 
so that a non-retiree would not be entitled to any disability 
unless it was in performance of duty.
    Mr. Principi. Yes. I think there was a consideration being 
given to it. I really don't know whether that is in the 
conference report. I don't believe it is. They were looking at 
how to offset the cost of full concurrent receipt and they 
proposed changing the definition of service connection just 
along the lines you said, that if you----
    Chairman Specter. We are talking about a non-retiree now 
and the non-retiree would continue to get disability if it was 
in the performance of duty.
    Mr. Principi. Everyone would--any active duty service 
member who is injured, whether it is in the performance of duty 
or not, would be eligible for benefits under Title 10, the 
Department of Defense disability program.
    Chairman Specter. Take the hypothetical of somebody in the 
military is in an automobile accident on the way to the base.
    Mr. Principi. Like I showed you here.
    Chairman Specter. All right. It is your hypothetical. Is 
that injury entitling him to a disability under the proposed 
offset?
    Mr. Principi. Only under the DoD system, not the VA. They 
would be eligible for disability payments from the Department 
of Defense, but not from the VA. But as you saw in the charts, 
if you are a lower-rated enlisted person, you don't fare as 
well under the DoD system as you would under the VA system. If 
you are a higher-ranked officer, you fare better under the DoD 
system than the VA system because the DoD system is based upon 
your grade times your length of service. The VA is equitable. 
We treat everybody the same.
    Chairman Specter. My time has almost expired, so let me 
turn to Senator Murray.

                STATEMENT OF HON. PATTY MURRAY, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Murray. Mr. Chairman, thank you for having this 
hearing today. I really appreciate it, and Secretary Principi 
for coming and joining us, and, of course, the VSO's, who are 
great voices for many people in this country. They have served 
us all well. I appreciate your all being here.
    I have been a strong supporter of concurrent receipt. I 
think it is the right thing to do and I am trying to understand 
this compromise proposal, as well. It is my understanding the 
VA has done some kind of quick assessment of the percentage of 
retirees that are currently receiving VA disability 
compensation that would be denied under the proposed definition 
for disability, and I think I heard that as many as 64 percent 
of the claims would have to be changed, is that correct?
    Mr. Principi. I will have Mr. Epley answer the question.
    Mr. Epley. My name is Bob Epley. We did a review of cases 
that were on hand in our central office, Compensation and 
Pension Service, and very quickly tried to make an assessment 
based on our review of the proposed legislation, and we did 
find that as many as 64 percent might not be eligible under----
    Senator Murray. Might not be eligible. Can you give me a 
rough idea of exactly how many veterans we are talking about, 
numbers?
    Mr. Epley. I think the sample was about 200 cases.
    Senator Murray. About 200 cases? Mr. Secretary, arthritis 
is one of the common diseases in non-veterans, and I have heard 
things like it could come from the trauma of jumping out of 
planes, for example. So if a paratrooper veteran with arthritis 
in his knees is unable to point to a specific injury from a 
specific jump, could this new proposal deny him benefits for 
which he is currently eligible?
    Mr. Principi. Yes, I believe it would under the VA system, 
but it would be eligible for the DoD retirement disability 
system, so----
    Senator Murray. He would be eligible for the DoD----
    Mr. Principi. But he would--under a redefinition; it is 
possible that that would be the case. I think, clearly, if you 
have arthritis and are a finance officer, it would probably be 
more difficult to demonstrate connection. If you were a 
paratrooper or Marine who slept on the cold ground in Korea, 
then I think a strong case could be made that that was 
performance of duty. But that is the complexity. That is what 
happens when you change this definition. It becomes very 
difficult to adjudicate what is service connected and what is 
not.
    Senator Murray. How could this proposal that is limiting 
the concurrent receipt to injuries directly, can you give us 
kind of an example of how that would affect our current 
veterans coming home from Iraq and Afghanistan? Do you have any 
idea?
    Mr. Principi. They are all coming home from a combat 
theater of operations. I would hope that anyone who is 
disabled, whether it is an injury or an illness, from a combat 
theater of operations would be service connected, would be 
considered to be in the performance of duty.
    Senator Murray. Even if it was their half-a-day off and 
they were not directly in combat?
    Mr. Principi. That could be very problematic, and under a 
redefinition, they could be excluded. They would have to rely 
upon the DoD system for their benefits.
    Senator Murray. I think that is a real concern. And the 
other concern I had was about surviving spouses. Wouldn't it be 
much more difficult under a performance of duty standard for a 
surviving spouse?
    Mr. Principi. Surviving spouses would be impacted the same 
as the service member, the veteran, is. Again, the Department 
of Defense has survivor benefit plans, but under DoD, under VA, 
if the veteran is deemed--his injury is deemed not to be in the 
performance of duty, then the spouse would be adversely 
impacted, as well.
    Senator Murray. I guess what concerns me is I feel like we 
are potentially creating a dual system where current claimants 
operate under a different standard for disability for future 
claimants, as well. I am concerned that administering two 
different systems here is going to become complex. We are going 
to have to create two different systems to handle this. How do 
you see that?
    Mr. Principi. I think it would be very--I think it would be 
problematic. I think those are some of the issues, if changes 
are appropriate, the implications of those changes and how 
those--this new program would be administered should be studied 
very carefully before we proceed.
    Again, I understand that it may be appropriate to look at 
some types of reforms, and I believe that the best approach to 
do that would be for us to collectively study it and to make 
recommendations on change.
    Senator Murray. I have a number of questions on this that I 
would like to submit. I know I only have a few seconds left. I 
did want to ask you while you were before this committee, as 
well, Secretary, as you know, we discussed the CARES process 
and I am deeply concerned about some of the time lines on that. 
I know you are supposed to make a decision by the end of this 
year. I know that cost savings is supposed to be part of that. 
I want to know from you, if those cost savings don't 
materialize, how we are going to deal with some of the outcomes 
of this and whether you think the administration will have 
enough funding or has requested enough funding to cover the 
costs of expanding the coverage and enhancing care.
    Mr. Principi. Senator, you raise important issues. I only 
have one goal, and that is to move the VA health care system 
forward in this century, recognizing the enormous changes that 
are taking place in American medicine and the demographics of 
the veteran population. So it is more about transformation. I 
am not looking to save money per se just for the sake of saving 
money, but to use that money in a way that expands the reach of 
health care.
    I have to be convinced in my own mind after the commission 
submits its report to me that this is, in fact, the right plan 
for the VA in the 21st century or I will not approve it. So I 
am going to take--I am going to be very deliberate in my review 
of it. If I have questions with what they have proposed, I am 
going to ask them to go back out and consider it. I would like 
to see if we can get this done by the end of the year, but what 
is more important to me is that we do it right, because we 
don't have many opportunities.
    GAO has said we are wasting $400 million a year, or close 
to $400 million a year. That is an awful lot of money for 
doctors and nurses and drugs that are being denied veterans, so 
I appreciate your concern.
    Senator Murray. I don't want to see money wasted. I am very 
concerned--I know you are closing or looking at closing about 
6,000 beds and counting on beds to be available in the private 
sector. Part of the CARES process was not to look at what beds 
were available. You said you are going to take your time and do 
it right. I would really urge you to make sure that you can 
assure veterans that we are not just going to close hospitals 
and hope those beds are open, but part of your study will be 
whether or not those beds are available in some of these 
communities, and I am deeply concerned about that.
    Mr. Principi. I agree with you, Senator, and I commit to 
you, that will be the case. From my perspective, as long as I 
am there, I will certainly ensure that that is done.
    Senator Murray. Thank you very much, Mr. Secretary. Thank 
you, Mr. Chairman.
    Chairman Specter. We are going to turn now to our second 
panel, Cynthia Bascetta and Dr. Dennis Snook. We are going to 
be holding to time lines very tightly here, if you would move 
up. Three minutes for each witness. We have another very 
lengthy panel and I expect to be voting soon so that we are 
going to have to adhere to these time lines.
    Our first witness is the Associate Director of Health, 
Education, and Human Services, General Accounting Office, Ms. 
Cynthia Bascetta. Ms. Bascetta, thank you for joining us and we 
look forward to your testimony.

          STATEMENT OF CYNTHIA A. BASCETTA, DIRECTOR, 
EDUCATION, WORKFORCE, AND INCOME SECURITY ISSUES, U.S. GENERAL 
                       ACCOUNTING OFFICE

    Ms. Bascetta. Thank you, Mr. Chairman. Thank you for 
inviting me to testify today.
    It goes without saying, with continued deployment of our 
military forces that we owe a profound debt to our veterans. As 
you know, current law allows veterans to receive disability 
compensation for diseases and injuries that are coincident with 
their military service. No causal link is required for 
eligibility.
    We reported on this issue in 1989 and suggested that the 
Congress may wish to consider whether diseases neither caused 
nor aggravated by military service should be compensated as 
service-connected disabilities. At your request, I will focus 
today on the findings of that report issued to the Congress 
nearly 15 years ago. To provide context for my perspective, I 
will also highlight our recent work on the high-risk nature of 
Federal disability programs for veterans and other Americans.
    Mr. Chairman, the complex design of VA's disability 
programs, including eligibility, has developed over many years. 
Our 1989 analysis used 1986 data to provide a profile of 
beneficiaries receiving disability compensation, with an 
emphasis on determining the origin of their disabilities. Our 
methodology involved extensive review by physicians of 400 
randomly selected case files.
    We found that 51 percent of veterans in our review were 
disabled due to injury, and more than one-third of them 
sustained their injuries in combat or performing a military 
task. The remaining 49 percent were disabled due to disease and 
the physicians concluded that 17 percent of their diseases were 
probably caused or aggravated by military service. But 19 
percent were probably not related to military service, and 13 
percent were indeterminate.
    The physicians concluded that there was generally no 
relationship between military service and several common 
diseases, including arteriosclerotic heart disease and chronic 
obstructive pulmonary disease. Notably at the time, they 
included diabetes, which recent scientific evidence indicates 
is linked to diabetes in veterans exposed to Agent Orange.
    CBO has used our analysis to estimate the savings 
associated with discontinuing eligibility for seven diseases we 
identified as probably not caused by service. Using VA data, 
CBO estimated budget savings of $449 million over the next five 
years.
    While this illustrates the potential cost savings of 
changes in eligibility, it is neither a comprehensive estimate 
nor does it necessarily reflect changes in medicine and 
scientific knowledge that could be used to update our 
understanding of the causal links between military service and 
disabilities. In fact, VA's outmoded disability criteria, 
whether the statutory definition of service connection remains 
the same or not, was one reason we designated it as high risk 
this year.
    Beyond eligibility, outmoded criteria have implications for 
the distribution of benefits, including whether those who are 
more severely disabled are compensated fairly relative to those 
with severe disabilities. For example, narrowing eligibility 
could free up resources to provide more compensation to the 
most severely disabled veterans.
    Chairman Specter. Ms. Bascetta, you are in overtime. Your 
full statement will be made a part of the record. Would you sum 
up, please?
    Ms. Bascetta. Yes, I will. Narrowing eligibility has 
significant implications, obviously, for stakeholders, 
veterans, and the design of VA's disability programs.
    This March, we testified that deliberations on concurrent 
receipt of disability compensation and retirement pay would 
benefit from the pursuit of more fundamental reform of all 
Federal disability programs, and we think that the proposal 
under discussion today certainly deserves the same amount of 
scrutiny.
    Chairman Specter. Thank you very much.
    [The prepared statement of Ms. Bascetta follows:]
  The Prepared Statement of Cynthia A. Bascetta, Director, Education, 
 Workforce, and Income Security Issues, U.S. General Accounting Office
    Mr. Chairman and Members of the Committee:
    I am pleased to be here to discuss our past reviews of the 
Department of Veterans Affairs (VA) disability programs as you consider 
the fundamental issue of eligibility for benefits and the related issue 
of concurrent receipt of VA disability compensation and Department of 
Defense (DoD) retirement pay. Our work has addressed these issues in 
addition to identifying significant program design and management 
challenges hindering VA's ability to provide meaningful and timely 
support to disabled veterans and their families. It is especially 
fitting, with the continuing deployment of our military forces to armed 
conflict, that we reaffirm our commitment to those who serve our nation 
in its times of need. Therefore, effective and efficient management of 
VA's disability programs is of paramount importance.
    As you know, in January 2003, we designated VA's disability 
compensation programs, as well as other federal disability programs 
including Social Security Disability Insurance and Supplemental 
Security Income, as high risk areas. We did this to draw attention to 
the need for broad-based transformation of these programs, which is 
critical to improving the government's performance and ensuring 
accountability within expected resource limits. In March 2003, we 
cautioned that the proposed modification of concurrent receipt 
provisions in the military retirement system would not only have 
significant implications for DoD's retirement costs, but could also 
increase the demands placed on the VA claims processing system. This 
would come at a time when the system is still struggling to correct 
problems with quality assurance and timeliness. Moreover, we testified 
that it would be appropriate to consider the pursuit of more 
fundamental reform of the disability programs as the Congress and other 
policymakers consider concurrent receipt.
    Today, as you requested, I would like to highlight the findings of 
our related past work on VA's disability programs, including our 1989 
report on veterans receiving compensation for disabilities unrelated to 
military service. My comments are based on numerous reports and 
testimonies prepared over the last 15 years as well as our broader work 
on other federal disability programs.
    In summary, VA needs to modernize its disability programs. In 
particular, VA relies on outmoded medical and economic disability 
criteria in adjudicating claims for disability compensation. In 
addition, VA has longstanding problems providing veterans with 
accurate, consistent, and timely benefit decisions, although recent 
efforts have made important improvements in timeliness. However, 
complex program design features, including eligibility, have developed 
over many years, and solutions to the current problems will require 
thoughtful analysis to ensure that efficient, effective, and equitable 
solutions are crafted. Moreover, these solutions might need to take 
into account a broader perspective from other disability programs to 
ensure sound federal disability policies across government programs and 
to reduce the risks associated with the current programs.

                               BACKGROUND
    VA provides disability compensation to veterans with service-
connected conditions, and also provides compensation to survivors of 
service members who died while on active duty. Disabled veterans are 
entitled to cash benefits whether or not employed and regardless of the 
amount of income earned. The cash benefit level is based on the 
percentage evaluation, commonly called the ``disability rating,'' that 
represents the average loss in earning capacity associated with the 
severity of physical and mental conditions. VA uses its Schedule for 
Rating Disabilities to determine, based on an evaluation of medical and 
other evidence, which disability rating to assign to a veteran's 
particular condition. VA's ratings are in 10 percent increments, from 0 
to 100 percent.
    Although VA generally does not pay disability compensation for 
disabilities rated at 0 percent, such a rating would make veterans 
eligible for other benefits, including health care. About 65 percent of 
veterans receiving disability compensation have disabilities rated at 
30 percent or lower, and about 8 percent are 100 percent disabled. 
Basic monthly payments range from $104 for a 10 percent disability to 
$2,193 for a 100 percent disability.

                 VA'S DISABILITY CRITERIA ARE OUTMODED
    In assessing veterans' disabilities, VA remains mired in concepts 
from the past. VA's disability programs base eligibility assessments on 
the presence of medically determinable physical and mental impairments. 
However, these assessments do not always reflect recent medical and 
technological advances, and their impact on medical conditions that 
affect potential earnings. VA's disability programs remain grounded in 
an approach that equates certain medical impairments with the 
incapacity to work.
    Moreover, advances in medicine and technology have reduced the 
severity of some medical conditions and allowed individuals to live 
with greater independence and function more effectively in work 
settings. Also, VA's rating schedule updates have not incorporated 
advances in assistive technologies--such as advanced wheelchair design, 
a new generation of prosthetic devices, and voice recognition systems--
that afford some disabled veterans greater capabilities to work.
    In addition, VA's disability criteria have not kept pace with 
changes in the labor market. The nature of work has changed in recent 
decades as the national economy has moved away from manufacturing-based 
jobs to service- and knowledge-based employment. These changes have 
affected the skills needed to perform work and the settings in which 
work occurs. For example, advancements in computers and automated 
equipment have reduced the need for physical labor. However, the 
percentage ratings used in VA's Schedule for Rating Disabilities are 
primarily based on physicians' and lawyers' estimates made in 1945 
about the effects that service-connected impairments have on the 
average individual's ability to perform jobs requiring manual or 
physical labor. VA's use of a disability schedule that has not been 
modernized to account for labor market changes raises questions about 
the equity of VA's benefit entitlement decisions; VA could be 
overcompensating some veterans, while under-compensating or denying 
compensation entirely to others.
    In January 1997, we suggested that the Congress consider directing 
VA to determine whether the ratings for conditions in the schedule 
correspond to veterans' average loss in earnings due to these 
conditions and adjust disability ratings accordingly. Our work 
demonstrated that there were generally accepted and widely used 
approaches to statistically estimate the effect of specific service-
connected conditions on potential earnings. These estimates could be 
used to set disability ratings in the schedule that are appropriate in 
today's socioeconomic environment.
    In August 2002, we recommended that VA use its annual performance 
plan to delineate strategies for and progress in periodically updating 
labor market data used in its disability determination process. We also 
recommended that VA study and report to the Congress on the effects 
that a comprehensive consideration of medical treatment and assistive 
technologies would have on its disability programs' eligibility 
criteria and benefit package. This study would include estimates of the 
effects on the size, cost, and management of VA's disability programs 
and other relevant VA programs and would identify any legislative 
actions needed to initiate and fund such changes.

      SOME VETERANS ARE COMPENSATED FOR DISABILITIES NOT RELATED 
                          TO MILITARY SERVICE
    A disease or injury resulting in disability is considered service-
connected if it was incurred or aggravated during military service. No 
causal connection between the disability and actual military service is 
required. In 1989, we reported on the U.S. practice of compensating 
veterans for conditions that were probably neither caused nor 
aggravated by military service. These conditions included diabetes 
unrelated to exposure to Agent Orange, chronic obstructive pulmonary 
disease, arteriosclerotic heart disease, and multiple sclerosis. A 
review of case files for veterans receiving compensation found that 51 
percent of compensation beneficiaries had disabilities due to injury; 
of these, 36 percent were injured in combat, or otherwise performing a 
military task. The remaining 49 percent were disabled due to disease; 
of these, 17 percent had disabilities probably caused or aggravated by 
military service; 19 percent probably did not have disabilities related 
to service; and for 13 percent, the link between disease and military 
service was uncertain. We suggested that the Congress might wish to 
reconsider whether diseases neither caused nor aggravated by military 
service should be compensated as service-connected disabilities.
    In March 2003, the Congressional Budget Office (CBO) reported that, 
according to VA data, about 290,000 veterans received about $970 
million in disability compensation payments in fiscal year 2002 for 
diseases identified by GAO as neither caused nor aggravated by military 
service. CBO estimated that VA could save $449 million in fiscal years 
2004 through 2008, if disability compensation payments to veterans with 
several nonservice-connected, disease-related disabilities were 
eliminated in future cases. In August 2003, we also identified this as 
an opportunity for budgetary savings if the Congress wished to 
reconsider program eligibility.
    Because of the complexities involved in a potential change in 
eligibility, the details of how such a change would be implemented and 
its ramifications are important to the Congress, VA, veterans, and 
other stakeholders. For example, service connection is linked with 
eligibility for other VA benefits, such as health care and vocational 
rehabilitation. Moreover, efforts to change VA disability programs, 
including eligibility reform, would benefit from consideration in the 
broader context of fundamental reform of all federal disability 
programs.
    Mr. Chairman, this concludes my prepared remarks. I would be happy 
to answer any questions that you or Members of the Committee might 
have.

    Chairman Specter. We now turn to Dr. Dennis Snook, Domestic 
Social Policy Division, Congressional Research Service. Thank 
you for joining us, Dr. Snook, and we look forward to your 
testimony.

  STATEMENT OF DENNIS W. SNOOK, Ph.D., DOMESTIC SOCIAL POLICY 
            DIVISION, CONGRESSIONAL RESEARCH SERVICE

    Mr. Snook. Thank you, Mr. Chairman, for the opportunity to 
provide some observations and conclusions about VA disability 
compensation and how it is determined.
    You mentioned earlier the 1924 date, which was really the 
culmination of public administration having learned the 
difficulties in trying to coordinate categorical eligibility 
with the specifics of individual cases. It was the working out 
of three principles that arose from the beginning of the 
Republic.
    The first was the patriotic imperative that we have a duty 
to protect the Republic and an obligation of the citizens to 
aid those who sacrifice on our behalf.
    The second was in the Civil War, the realization that we 
were moving into a period in which it wasn't simply a 
professional class of military officers who became disabled in 
the service of the country and couldn't continue on in their 
military careers and, therefore, they and their families needed 
to be supported, but it was a much larger population of people 
who had lost the capacity to become self-reliant. And so we 
began to try to provide ways to give them the support they 
needed for the remainder of their lives.
    However, we were a new nation and public administration 
itself was quite new and practices in the 1870s that were 
arising in the railroads of trying to regularize a practice of 
taking up a collection for Joe when Joe was hurt began to be 
reflected in the way in which the government began to deal with 
disability cases. It had to, first of all, try to come up with 
a criteria of eligibility, but it also had to try to find a way 
to validate or rebut claims.
    The problem was that the general presumption upon which the 
compensation was based, the idea of replacing the capacity to 
become, or to remain self-reliant, was that the individual is 
presumed to be of sound mind and body at the point at which 
they entered military service, and if at some subsequent point 
afterwards they were no longer of sound mind and body, then 
there is a prima facie case that the individual somehow or 
another sustained some disability during the period of military 
service.
    It became especially important in the aftermath of the 
Spanish-American War, through the period to 1924, when we began 
to experience the rise in various kinds of disabilities based 
upon illnesses that were sustained that we couldn't even 
diagnose. We just knew that, somehow or another, these people 
had encountered them during their period of military service.
    The same was true with injuries sustained during the Civil 
War, as we began to try to codify a way to provide them 
benefits. We could look back and say that they--we could look 
at them now and say that they indeed exhibited the 
characteristics of a disability, but we had to try to figure 
out whether or not that disability had actually been sustained 
during service. So attempts were made to do that, only to 
discover that it wasn't really possible. It was really 
necessary to provide them only a connection to their period of 
military service.
    If you try to move away from----
    Chairman Specter. You are in overtime. Could you sum up, 
please?
    Mr. Snook. I will. To provide an alternative to this is to 
create a system that will die the death of a thousand 
qualifications in a hurry, because there is really no way to 
try to take that categorical eligibility and translate it into 
specific cases without using a broader brush, like service 
connection at a point in time.
    Thank you very much.
    Chairman Specter. Thank you very much.
    We have questions, but we are looking for a series of votes 
here on the Interior bill, and once they start, we are going to 
have to move onto the floor, so we are going to move now to the 
third panel, Mr. Mark Olanoff, Mr. Dennis Cullinan, Mr. Rick 
Surratt, Mr. Carl Blake, Mr. Richard Jones, Mr. Rick Weidman.
    We turn now to our first witness, Mr. Mark Olanoff, 
Assistant Director of the National Legislative Commission of 
the American Legion. Mr. Olanoff, thank you for joining us and 
we look forward to your testimony.

  STATEMENT OF MARK H. OLANOFF, ASSISTANT DIRECTOR, NATIONAL 
             LEGISLATIVE COMMISSION, THE AMERICAN 
                             LEGION

    Mr. Olanoff. Thank you, Mr. Chairman. It is a pleasure to 
see you again. I know we don't have a lot of time.
    There are a couple of things that I would like to react to. 
I have submitted a full statement for the record.
    Chairman Specter. It will be admitted into the record, 
without objection.
    Mr. Olanoff. Thank you, Mr. Chairman. The first thing is 
some of the quick questions here. Military retired pay is an 
earned benefit for longevity years of service. The VA 
disability compensation system is based on injuries or diseases 
that are incurred or aggravated while in service.
    None of us sitting here invented these terms, severely 
disabled and combat related. A veteran is a veteran is a 
veteran. It doesn't matter whether you served two years or 40 
years.
    The American Legion has had a resolution for years to 
provide full concurrent receipt. The last few years, the 
legislation was changed to be called the restoration of retired 
pay, because that is what it really is. The Pentagon doesn't 
pay the money and military retirees are forced to pay for their 
own disability.
    A few examples of--and unfortunately, as I said in my 
written statement, we don't have the official language of what 
is being proposed. However, we have seen one version of the 
language, which I faxed to Mr. Tuerk today, which states that 
both Title 10 and Title 10XXVIII would be changed to this 
performance-based system.
    So, therefore, the people that were in the Khobar Towers, 
which I had the opportunity to visit before that happened, 
under the new, quote, ``definition of performance of duty,'' if 
you go by the first version that some of us have seen, if you 
are sleeping in your bed after duty hours, those heroes who 
received Purple Hearts, no longer would they receive a Purple 
Heart. They wouldn't even be considered service connected. 
Their widows, if they were to die, would receive nothing, and 
they would be out on the street probably looking for some other 
Federal program.
    So we support concurrent receipt fully, but not in a 
draconian way to change the whole business of Title 10XXVIII 
to, as Senator Murray said, have two systems, one system for 
the people that are currently receiving disability compensation 
and another system for new people who are going to come back 
from Iraq, and God forbid that if you are off duty, or some of 
this language suggests if you are traveling back and forth to 
work or going to lunch, you would not be considered, like 
today's criteria that you are covered 24-7.
    So we urge you to--there needs to be a deliberative process 
before this system is changed. Thank you, Mr. Chairman.
    Chairman Specter. So you favor concurrent receipts, but not 
with a draconian offset that hasn't been sufficiently studied?
    Mr. Olanoff. Yes, sir.
    [The prepared statement of Mr. Olanoff follows:]
The Prepared Statement of Mark H. Olanoff, Assistant Director, National 
              Legislative Commission, The American Legion
    Mr. Chairman and Members of the Committee:
    Thank you for allowing The American Legion the opportunity to 
participate in this hearing. Over the last two weeks, The American 
Legion and other veterans' and military service organizations have been 
chasing a ``ghost'' proposal attempting to end the tax placed on 
disabled military retirees. To date, The American Legion has not been 
provided a written copy of the proposed legislation for its official 
comments. Even for this hearing, we are asked to speculate what that 
proposed legislation might look like.
    So here is the short answer: The American Legion adamantly supports 
full concurrent receipt of military retirement pay and VA disability 
compensation. Both are earned benefits for two completely different 
reasons. Military retirement pay is determined and awarded by the 
Department of Defense for honorable military service. VA disability 
compensation is determined and awarded by the Department of Veterans 
Affairs for medical conditions incurred or aggravated while on active-
duty.
    Of the 26 million American veterans, less than 10 percent are 
service-connected disabled and only 2 percent are military retirees. 
Over 2 million service-connected disabled veterans receive their VA 
disability compensation with no offsets to their salaries or retirement 
plans, to include Federal and State employees. However, there are 
600,000 military retirees that could not receive VA disability 
compensation until they were discharged from active-duty and retired--
even if the disability were as obvious as a missing limb. Once they 
were awarded their VA disability compensation, their military 
retirement pay was reduced--dollar-for-dollar. The amount of military 
retirement pay retained by DoD would amount to literally hundreds of 
billions of dollars.
    In fact, according to Secretary Rumsfeld, DoD plans to withhold an 
additional $58 billion over the next 10 years from the retirement 
checks of military retirees with 20 years or more of active military 
service or Reservists with over 7200 points. If the Secretary included 
all service-connected disabled military retirees, that amount would be 
even greater.
    The current proposal being floated around would grant full 
concurrent receipt at what The American Legion would consider an 
immoral and unethical approach. This proposal calls for ``reform'' of 
the VA disability definition. Yet, VA has at least two full 
congressional committees with jurisdiction and oversight of the VA 
claims and adjudication process. In addition, VA has judicial review of 
its disability compensation decisions through the Court of Appeals for 
Veterans' Claims.
    Ill-advised changes in VA's disability definitions would result in 
numerous examples of injustices resulting in service-connected disabled 
veterans being denied compensation, treatment, or rehabilitation. The 
adverse impact of this legislation would continue to reveal unintended 
consequences. With each unique case new adjustments would be made and 
eventually, you would be right back where you started with the current 
rules, regulations, and definitions.
    Changes in disability standards in Titles 10 and 38 United States 
Code (USC) would require that injury or illness that results in 
disability retirement and separation must have been incurred as a 
``direct result of the performance of duty'' and redefines service 
connection, respectively, as follows;
    1. Injuries resulting from the performance of official military 
duties.
    2. Illness directly resulting from exposure to the causes of the 
illness while performing military duties or directly resulting from 
exposure to the causes of the illness at the duty or directly resulting 
from exposure to the causes of the illness at the duty location to 
which the member is assigned.
    3. Excludes injuries that are sustained while not performing 
official military duties.
    4. Excludes illnesses determined to be related to aging and/or 
preexisting medical conditions of the member;
    ``Official military duties'' are defined as:
    1. Duties performed in an official government capacity directly 
related to those functions and scope of duties associated with the 
occupational skill assigned to the member.
    2. Other actions or functions in an official government capacity 
that the member was ordered to execute by a member (or civilian 
supervisor) of senior grade or rank or in an senior or superior 
position, or a member, or a member that is designated by such a senior 
individual to give the member instructions, to include unspecified 
preparatory or follow-on actions and functions.
    3. Includes duties that result in qualified combat-related 
disabilities as defined in 10 U.S.C. Sec. 1413a.
    4. Excludes actions and time periods unrelated to official 
government business to include travel to and from the members home and 
permanent duty station, meals and other activities selected and carried 
out by the member at an official duty location and during hours 
designated as duty hours for the member.
    Mr. Chairman, The American Legion agrees that reform is necessary, 
but the reform needs to focus on the formula used to compute the annual 
discretionary appropriations required to supplement the Military 
Retirement Trust Fund. Current calculations include concurrent receipt 
windfalls. A 5-year adjustment in this formula would phase-in full 
concurrent receipt without denying future veterans their service-
connected disability claims.
    This ill-conceived proposal will stand a century of veterans' law 
on its head. The unintended consequences can only be imagined and 
starts at the top. The Congressionally-mandated ideal of a non-
adversary, paternalistic VA will vanish in the smoke and mirrors of 
petty partisan politics. The doctrine of the benefit of the doubt will 
be rendered moot; the tie will now go to the Federal Government and the 
veteran will be left twisting in the bureaucratic wind. A paralyzing 
upheaval in the Veterans Benefits Administration (VBA) will add months 
if not years to already interminable claims processing times. The 
Department of Defense (DoD) will spend millions of additional dollars 
annually retaining tons of records that would normally be disposed of, 
as will the National Archives storing and retrieving them. The Services 
must establish hundreds of new ``Performance of Official Duty 
Determination Boards''. The Secretary of Veterans Affairs will no 
longer have the power to add new diseases to the presumptive lists and 
the existing ones will be called in to question.
    The U.S. Courts of Appeals for the Federal Circuit and for Veterans 
Claims will be swamped with litigation for years to come. DoD 
recruitment goals will fail to be met as young men and women reconsider 
whether they will be able to afford to pay for care for treatment of 
injuries and illnesses incurred in service while ``off-duty'', because 
private insurers will not cover pre-existing conditions.
    More questions are raised than are answered by this odious 
language. The Marine Corps veteran is now required to prove that he or 
she contracted malaria while walking guard duty in some third world 
nation and not while the member was dining al fresco on MRE's there 
between shifts? Preposterous. Under the proposed plan, conceivably, a 
16-year Air Force avionics technician will be determined unfit for 
military service as the result of trauma sustained in a car wreck on 
the way to work and therefore released from service. Ineligible for the 
Temporary Disability Retired List (TDRL), the veteran and his or her 
family are now struggling to survive. Outrageous.
    Following a barrage of conflicting shouted orders from midshipmen, 
none of whom are her direct superior, a first-year Naval Academy 
student tears her medial cruciate ligament running an obstacle course 
in the dark. The injury is determined to be ``not in the performance of 
official duties''. Unacceptable. A former Army graves registration 
specialist in Vietnam succumbs to refractory hypertension and coronary 
artery disease induced by a lifetime of chronic, severe post-traumatic 
stress disorder. In his social withdrawal and fear of institutions, the 
veteran never filed a service connection claim. This secondary service 
connection relationship just now being recognized and accepted by VA 
and the widow is advised to file a claim for Dependency and Indemnity 
Compensation (DIC). The widow must now prove an additional element of 
service connection in addition to cause of death, incident in service 
and medical nexis; ``performance of official duty.'' After three years 
of waiting the DIC claim is denied on the new element and the widow and 
her children continue to live in poverty. Shameful.
    Mr. Chairman, before closing, let me relate another scenario to you 
and the Committee. Two U.S. soldiers are on patrol in a hostile fire 
area, be it Vietnam, Iraq or the Philippines. An enemy hand grenade 
detonates between them and both soldiers receive similar shell fragment 
wounds, are given first aid on the scene, sent to an aid station and 
evacuated to a U.S. military hospital where they receive medical 
treatment and rehabilitation. Both recover from their wounds with 
similar residual scars and go on to complete their enlistment. One 
soldier decides to make the military a career and re-enlists; the other 
gets out and goes to work for the U.S. Postal Service. The postal 
worker files an immediate claim for his scars and is assigned a 10% 
disability rating, which he begins to collect monthly. The soldier must 
wait until he retires to file a disability claim. Both complete 20 
years of faithful Federal service and retire. Only the career soldier 
must choose between the 10% disability compensation and his military 
pension. In the meanwhile, the postal worker has accrued close to 
$50,000.00 that the career soldier has not. This fundamental unfairness 
in the law must end, but it must not be at the expense of veterans who 
served this nation honorably for a short time in their lives and 
returned to civilian life having left pieces of themselves, whether of 
body or psyche, behind. It is shameful that the very institution 
charged with the responsibility to ensure America's veterans are justly 
treated would employ such a vile bargaining tactic.
    Military retirement is an earned benefit through time in service, 
as is all other Federal career retirement plans. VA disability 
compensation is just payment for injuries resulting from service. Both 
are separately earned and fully deserved entitlements. Military 
retirees are the only ones so treated. There is a correct way to deal 
with disability compensation reform. Making it more difficult for 
veterans to be awarded disability, in one fell swoop by a Committee 
that does not have jurisdiction, is not the way
    The government should stop making military retirees pay for their 
own disability compensation--that is the issue at hand--and should set 
spending priorities accordingly that demonstrate respect for career 
military service members. The American Legion will continue to fight to 
end this travesty and to prevent another from occurring.
    Mr. Chairman, thank you for requesting the views of The American 
Legion on this very important issue affecting our nation's veterans.

    Chairman Specter. Okay. The second witness is Mr. Dennis 
Cullinan, Director of the National Legislative Service of the 
VFW. Thank you for coming, Mr. Cullinan. The floor is yours.

 STATEMENT OF DENNIS CULLINAN, DIRECTOR, NATIONAL LEGISLATIVE 
               SERVICE, VETERANS OF FOREIGN WARS

    Mr. Cullinan. Thank you very much, Mr. Chairman, members of 
the committee. On behalf of the men and women of the Veterans 
of Foreign Wars, I want to thank you for conducting today's 
most important hearing.
    The VFW has long championed the cause of concurrent receipt 
and we salute you for your efforts in that regard. However, the 
issue under discussion today, from the perspective of both 
equity and fairness, is just plain wrong. What this would 
basically do is eliminate up to 64 percent of those currently 
receiving VA compensation from that.
    What comes to mind immediately is the 200-some-odd 
servicemen who recently contracted malaria while serving in 
Liberia. That is an instance where, quite clearly, a number of 
those may not be service connected for that. How could they 
prove whether they were bitten by the vector or not while they 
were on active duty or while resting in their bunks? It also 
comes to mind that during this time of the global fight on 
terrorism, our men and women will be serving in many distant 
venues and probably associated with that will be a variety of 
diseases and disabilities that would be hard to describe as 
service connected. They, too, would be denied. And then such 
things as arthritis. Unless a paratrooper, who serves four 
years in the military gets out, suffers arthritis as a 
consequence of many jumps out of an airplane, he or she, too, 
would be hard put to prove that this was service connected once 
he had left active duty military.
    One of the things that is most nettlesome, irritating about 
this to the VFW, it is not for the purpose of conducting a 
higher-level policy debate or for reforming or refining the 
compensation system. What it is expressly about is the money, 
pure and simple, and what it would basically do, it attempts to 
pit one group of veterans against another. It would attempt to 
remedy the inequity known as--or the prohibition on concurrent 
receipt by visiting an injustice on another group of veterans, 
and, in fact, all veterans. Something like this is just plain 
wrong.
    Also shown today is the fact that it short-circuits the 
process. This committee is denied full access to the deliberate 
process that should be gone through when something of this 
nature is being undertaken. And, of course, the veterans' 
service community is excluded from the process, as well.
    And finally, as already mentioned, the implications for 
health care for not only the member of the active duty 
military, but dependents, is involved as well, such things as 
vocational rehab, and the list goes on and on.
    It is just plain wrong and we strongly oppose it. Thank 
you.
    Chairman Specter. Well, thank you, Mr. Cullinan. 
Essentially, you agree with what Mr. Olanoff has said. You like 
concurrent receipts, but not at the expense of a draconian 
offset that hasn't been studied.
    Mr. Cullinan. That is exactly right, Senator. Thank you.
    Chairman Specter. Okay. We next turn to Mr. Rick Surratt, 
Deputy National Legislative Director of the Disabled American 
Veterans. Thank you for joining us, Mr. Surratt, and we look 
forward to your testimony.

    STATEMENT OF RICK SURRATT, DEPUTY NATIONAL LEGISLATIVE 
              DIRECTOR, DISABLED AMERICAN VETERANS

    Mr. Surratt. Mr. Chairman, on behalf of the DAV, I want to 
thank you for convening this hearing to address a proposal that 
would not only attack the very heart of veterans' benefits, but 
would also be extremely detrimental to members of the armed 
forces and their families.
    This proposal is so extreme that most of us thought no 
member of the United States Congress or any responsible United 
States Government official would ever seriously entertain it, 
certainly not advocate it. Under this scheme advanced by the 
House leadership, members of the armed forces would themselves 
bear the risk of being disabled while serving in the military. 
All disabilities but those incurred under a very narrow set of 
circumstances would be excluded from coverage under DoD and VA 
disability benefits programs.
    Under this scheme, if a service member were seriously 
injured from an accidental or any other cause occurring at any 
time other than when the service member was performing military 
duties per se on the job, the government would assume no 
responsibility.
    For example, if a service member were paralyzed from the 
structural collapse of a military mess hall or barracks, the 
government would wash its hands of the member and send him or 
her back to the civilian community to be cared for and 
maintained by relatives or others with no assistance from the 
government. There would be no disability benefits, no 
rehabilitation benefits, and without service-connected status, 
no guarantee of health care ever.
    Large numbers of those who defended us in the times of 
crisis and incurred disabilities during military service will 
be destitute in civilian life. With no means of subsistence, 
many of these disabled veterans may likely be forced to live on 
the streets of our cities. It will become our most embarrassing 
national disgrace. What are we coming to when our government 
wants to take no responsibility for soldiers disabled in the 
line of duty?
    I can imagine it now, the government saying to the bereaved 
widow and children of a soldier killed in a foreign land, ``I 
am sorry, but you do not qualify for government benefits. 
Although your husband was killed in the line of duty while 
serving his country, his death was not caused by the 
performance of military duties.''
    I am not sure if the proponents of this scheme have any 
understanding of the consequences it will have for military 
recruitment or the magnitude of the hardships it will create 
for disabled veterans and their families. What is clear is that 
the House leadership seeks to replace a grave injustice against 
disabled military retirees with a far greater injustice against 
almost all who are disabled in military service.
    I can tell you that disabled veterans see this as an 
unprecedented and unprincipled attack upon them by the 
government they defended. I hope we can count on the members of 
this committee to lead the effort to educate their Senate 
colleagues about the folly of this plan and stop this ill-
advised attack upon disabled veterans.
    Mr. Chairman, that concludes my statement.
    Chairman Specter. Thank you very much. You encapsulated 
pretty fast. It is a great injustice not to have concurrent 
receipts, but it is a greater injustice to have an offset as 
proposed. That is about the size of it, Mr. Surratt?
    Mr. Surratt. Yes, sir.
    Chairman Specter. Thank you.
    [The prepared statement of Mr. Surratt follows:]

  The Prepared Statement of Rick Surratt, Deputy National Legislative 
                  Director, Disabled American Veterans
    Mr. Chairman and Members of the Committee:
    On behalf of the members of the Disabled American Veterans, their 
families, and all members of the Armed Forces and their families, I 
want to thank you for convening this hearing and allowing us to state 
our deep concerns about a plan by the leadership of the House of 
Representatives to greatly restrict the terms under which service-
incurred disabilities would be given service-connected status. This is 
an issue of paramount importance to disabled veterans and 
servicemembers, who will be our future veterans.
    This House plan would have our Government renounce all 
responsibility to compensate and care for members of the Armed Forces 
disabled in the line of duty, except under extremely restricted 
circumstances. This move would abandon the fundamental principles of 
our Nation's relationship between its citizens and the veterans who 
have made extraordinary sacrifices in their behalf. For a veteran who 
suffers service-connected disability, our Government has deemed it our 
moral obligation to provide the disabled veteran a range of benefits 
designed to ease the economic and other losses and disadvantages 
incurred as a consequence of serving his or her country. These benefits 
include compensation, medical care, and vocational rehabilitation. 
Other special benefits are provided to the most severely disabled 
veterans and to the survivors of veterans whose deaths are from 
service-connected causes. The House plan would bring these benefit 
programs to an end for the majority of our future disabled veterans and 
their families and would essentially deny increased compensation for 
many current disabled veterans when their disabilities worsen.
    Under current law, the term ``service-connected'' means generally, 
``with respect to disability or death, that such disability was 
incurred or aggravated, or that the death resulted from a disability 
incurred or aggravated, in the line of duty in the active military, 
naval, or air service.'' 38 U.S.C.A. Sec. E101(16) (West 2002). An 
injury or disease incurred ``during'' military service ``will be deemed 
to have been incurred in the line of duty'' unless the disability was 
caused by the veteran's own misconduct or abuse of alcohol or drugs, or 
was incurred while absent without permission or while confined by 
military or civilian authorities for serious crimes.'' 38 U.S.C.A. 
Sec. E105 (2002).
    Based on equitable considerations, several named ``chronic'' 
diseases may be presumed service connected because of their sometimes 
insidious onset and clinical manifestation within relatively short 
periods of time following service. Others may be presumed service 
connected based on the likelihood of a causal connection between the 
specified disabilities and certain circumstances of military service or 
exposure to certain hazards during service. These include tropical 
diseases for veterans who had service in areas where such diseases were 
endemic; diseases suffered by former prisoners of war from 
malnutrition, unsanitary conditions, physical hardships or abuse, and 
mental hardships or abuse; radiation-related disabilities for veterans 
who were exposed to radiation during service; diseases associated with 
exposure to herbicides used during the war in Vietnam; and disabilities 
peculiar to veterans who had service in the Persian Gulf War. 38 
U.S.C.A. Sec. Sec. 1112, 1116, 1117, 1118 (West 2002). In addition, the 
Secretary of Veterans Affairs presumes certain diseases are service 
connected when suffered by veterans who, during service, were exposed 
to mustard gas and Lewisite. 38 C.F.R. Sec. E3.316 (2002).
    Thus, disabilities are service connected under current law when 
incurred, aggravated, or presumed incurred or aggravated during or by 
military service. While service connection may be established based on 
a demonstrated or presumed cause-and-effect relationship, service-
related causation is not required where there is evidence of a 
condition during service or a presumptive period. Under current law, 
disabilities of onset coincident with military service may be service 
connected without necessity to establish and prove a causal link 
between the performance of military duties, per se, and the disability. 
If the disability is of service origin, it is deemed attributable to 
service-related factors. ``Service connection connotes many factors, 
but basically it means that the facts, shown by evidence, establish 
that a particular injury or disease resulting in disability was 
incurred coincident with service in the Armed Forces, or if preexisting 
such service, was aggravated therein.'' 38 C.F.R. Sec. E3.303(a) (2002) 
(emphasis added).
    Clearly, Congress fully understood and intended this equitable and 
practical basis to compensate veterans for a wide range of disabilities 
for which the extraordinary rigors and hardships of military service 
can fairly be assumed to have played a precipitating or aggravating 
role, although the very nature of the circumstances of military service 
coupled with imperfect science make proof of causation extremely 
difficult or impossible in many instances. ``Congress has designed and 
fully intends to maintain a beneficial non-adversarial system of 
veterans' benefits. This is particularly true of service-connected 
disability compensation where the element of cause and effect has been 
totally by-passed in favor of a simple temporal relationship between 
the incurrence of the disability and the period of active duty.'' H.R. 
Rep. No. 100-963, at 13 (1988).
    Under the draft proposal of the House leadership, service 
connection would be granted only where the disability is from: (1) 
``[i]njuries directly resulting from the performance of official 
military duties,'' and (2) ``[i]llnesses directly resulting from 
exposure to the causes of the illness while performing official 
military duties or directly resulting from exposure to the causes of 
the illness at the duty location to which the member is assigned.'' 
(Emphasis added.) Excluded from the scope of service connection under 
this restricted standard would be (1) ``injuries that are sustained 
while not performing official military duties,'' and (2) ``illnesses 
determined to be relating to aging and/or preexisting medical 
conditions of the member.'' The proposed scheme narrowly defines 
``official military duties'' as including: (1) ``[d]uties performed in 
an official government capacity directly related to those functions and 
scope of duties associated with the occupational skill assigned to the 
member,'' (2) ``[o]ther actions or functions in an official government 
capacity that the member was ordered to execute by a member (or 
civilian supervisor) of senior grade or rank or in a senior or superior 
position, or a member that is designated by such as senior individual 
to give the member instructions, to include unspecified preparatory or 
follow-on actions and functions,'' and (3) ``duties that result in 
qualified combat-related disabilities as defined in section 1413a of 
Title 10, [United States Code].'' Essentially all other activities of 
military service fall under a broad exclusion from the definition of 
``official military duties,'' even events that occur during duty hours. 
Excluded are ``actions and time periods unrelated to official 
government business to include travel to and from the member's home and 
permanent duty station, meals, and other activities selected and 
carried out by the member at an official duty location and during hours 
designated as duty hours for the member.''
    Disability may arise in the course of military service, but not be 
susceptible to strict proof that it was the proximate result of 
performing activities of the member's specific military occupation, as 
opposed to engaging in the wide range of activities typical of service 
in the Armed Forces. The current terms for service connection provide 
both an equitable and sensible approach because it is often impossible 
to disassociate the disability from service-related factors, even while 
the veteran is unable to establish a definite causation. It is 
generally recognized that the cause of disease may be multifactorial. 
Therefore, disability incurred in the line of duty is sometimes not 
directly due to a job injury or traceable to known causes, but 
certainly may be due to subtle or less obvious factors inherent in the 
Armed Forces environment.
    Mental illnesses present a good example of disabilities that can 
properly be service connected under current law, but would not qualify 
for service connection in many cases under the proposed new standards. 
Under the proposed change, how will it be fairly determined whether a 
mental illness that begins during military service is attributable to 
the performance of duties only, as opposed to (1) the stresses of the 
military environment generally to include the stresses associated with 
the performance of military duties combined with the stresses of 
serving in certain generally stressful military environments, (2) the 
emotional strain of serving away from home and family or in isolated 
duty stations, or (3) psychological stressors or factors totally 
unrelated to the military environment? Under the House plan, would 
service connection for mental illness be in order if it were clearly 
shown to have been partially caused by the performance of military 
duties and partially caused by other stresses of the military 
environment? In addition, it is being recognized more and more that 
mental stress plays a role in physical health. How will the Department 
of Veterans Affairs (VA) properly adjudicate complex questions of 
service connection for physical illnesses that are not directly shown 
to be related to performance of military duties, but may have been 
triggered or intensified by the stressors of combat, terrors of a 
prisoner of war experience, or the anxieties of highly stressful 
military occupations?
    If service connection were currently subject to proof of service 
causation, Persian Gulf War veterans suffering from very real, but 
poorly understood, undiagnosed illnesses would be left without 
compensation or medical treatment. Although a discrete group having the 
common experience of presence in a geographical region at the same 
period in time suffers from a syndrome comprising a commonality of 
symptoms, the link between the syndrome and the common experience is 
only circumstantial. It follows that there currently is no possibility 
of ascertaining whether these illnesses are directly due to the 
performance of military job functions or whether mere presence in the 
region, both on and off duty, could have caused them. The true nature 
of disease is unknown, and thus its cause or causes are unknown. With 
the additional exclusions included in the House plan, it is not at all 
clear that conditions such as these will be deemed by VA to qualify for 
service connection within the ambit of 10 U.S.C.A. Sec. E1413a (West 
Supp. 2003) (``Qualifying combat-related disability'').
    In a variety of other situations, it will be very difficult for 
veterans to prove that they were exposed to the causes of their 
diseases while performing military duties on the job as opposed to 
having been exposed while off duty. For example, how will a veteran 
prove that he was exposed to asbestos on a Navy ship only while 
performing his job functions as opposed to exposure in off duty hours? 
How will a veteran who contracted malaria in a tropical region prove 
that the mosquito bit him or her while performing military duties. How 
will the veteran who develops Lyme disease after field training prove 
that the tick that transmitted the disease bit him or her while 
performing military duties rather than while taking a rest break or 
sleeping in a tent?
    Numerous other similar examples can be foreseen, particularly with 
respect to the question of whether the causes underlying a whole range 
of infectious or degenerative diseases were solely attributable to the 
performance of military job functions, attributable to the overall 
military environment (including the stresses and rigors of military 
service generally), attributable to both the environment within the 
confines of the military facility and off-base living facilities, or 
attributable to both military occupational functions and off-duty 
recreational activities.
    For many in our Armed Forces who have military occupations that 
require them to stay in top physical condition, the line between what 
is performance of duty and recreation is blurred, if not nonexistent. 
If service connection is to be denied for the soldier who injures his 
knee playing special services basketball, is it also to be denied for 
the sailor who, at the encouragement or direction of her superiors, 
injures her knee participating in authorized recreational or sports 
activities while stationed on an aircraft carrier in the Persian Gulf? 
Or is it also to be denied for the Marine who injures his knee while 
keeping in shape in the exercise room in the foreign embassy where he 
is stationed?
    Consider the circumstances in which servicemembers were killed and 
disabled from a terrorist attack on their barracks in Beirut, Lebanon. 
Most were probably not performing military duties at the time. Consider 
the circumstances in which soldiers were the victims of the terrorist 
attack on a Berlin nightclub. In a strict sense, that was not 
performance of duty. On the other hand, unlike a civilian job, those 
soldiers were at the disposal of the Army 24 hours a day and were 
placed at risk because of military service. Military life, like 
civilian living, involves work, recreation, commuting between work and 
home, but in the Armed Forces these are all the performance of duty in 
the broader sense, especially when the servicemember is located in a 
military community or is isolated on a foreign station.
    The radical House plan will have other far-reaching implications. 
There will be no presumptive service connection for ``chronic 
diseases'' because service connection is based on a presumption that 
the chronic disease has its onset during military service. Inasmuch as 
there is no evidence of the disease during service, it follows that the 
disease cannot be linked to the performance of military duties. As 
noted, presumptive service connection for illnesses attributed to 
service in the Persian Gulf is in doubt under this plan. The same 
difficulty exists in proving that exposure to herbicides--and radiation 
during the occupation of Hiroshima and Nagasaki--occurred solely in 
connection with the performance of military duties.
    The House's draft plan also expressly excludes from disabilities 
subject to service connection ``illnesses determined to be related to 
aging and/or preexisting medical conditions of the member.'' This 
indicates there will be no service connection by reason of aggravation. 
An individual could enter service with some minimal defect that did not 
disqualify the person for military service and have that disability 
aggravated by superimposed injury during service to an extent that it 
disqualified the member from further military service and resulted in 
total disability, but service connection would not be in order. The 
veteran would be sent home to fend for himself or herself.
    Because the House plan would apply to new claims for service 
connection and evaluations of existing service-connected disabilities, 
veterans who suffer worsening of their service-connected disabilities 
could receive no increased ratings unless they could prove their 
already service-connected disabilities were the direct result of the 
performance of duty.
    A servicemember who was paralyzed, for example, due to medical 
malpractice by a military physician would be without any remedy or 
benefits. A disability incurred in connection with military medical 
treatment would not meet the performance-of-duty requirement, and the 
member would be barred under Feres v. United States, 340 U.S. 135 
(1950) (the ``Feres doctrine'') from bringing a tort action to recover 
damages from the Government. Here again, the disabled veteran would be 
left to his or her own means to survive.
    The House plan would plunge servicemembers into an extremely 
precarious position. Members of the Armed Forces have no real ability 
to obtain disability insurance from commercial insurers. Even if such 
insurance were available to them, the price would be prohibitive given 
the increased risks inherent in military service. Only the Federal 
Government is in a position to bear this risk--and it should without 
question.
    Another incidental adverse effect would impact disability 
retirement from military service. Compensation is often elected in lieu 
of military disability retirement. Servicemembers who become disabled 
before completion of military careers are now eligible for disability 
retirement from the Armed Forces. Many of these disability retirees 
find it advantageous to elect to receive disability compensation. 
However, neither military retirement nor disability compensation would 
be available under the proposed plan unless the disability was due to 
the performance of military duties. Other Federal and private sector 
disability retirement programs do not require that the disability be 
job related.
    Because entitlement to most benefits for veterans' dependents and 
survivors is derived from the veterans' service-connected status, the 
House plan would therefore also have a major adverse impact on 
veterans' families. It is unclear how it might impact disability and 
other benefits under chapter 18 of Title 38, United States Code, 
provided to Vietnam veterans' children who suffer from spina bifida.
    Beyond these more readily recognizable adverse effects, this change 
has the potential to cause myriad unforeseen and unintended 
consequences for veterans, servicemembers, veterans' and 
servicemembers' families, and for VA. For VA, numerous adverse 
consequences are easily foreseeable.
    The ``line of duty'' standard dispenses with many complex issues 
related to disability causation. It is where the claim for service 
connection rests on proof of causation that VA now has its most complex 
and administratively burdensome adjudications. These complex 
adjudications involve proof of service connection for disabilities not 
shown during service or any presumptive period, such as, post-traumatic 
stress disorder, asbestosis, non-presumptive radiogenic diseases, and 
others. These cases demand a much greater investment of VA time and 
resources to resolve. To impose a causation requirement upon all new 
disabilities and claims for increase will complicate VA's work beyond 
belief. It will generate untold numbers of disputes about causation, 
and the innumerable factual nuances in questions of causation will make 
fair and uniform determinations on this element of claims near 
impossible to achieve.
    Because this change would strike at the very foundation of 
veterans' disability benefits, it would require a virtual rewrite of 
Title 38, United States Code, and Title 38, Code of Federal 
Regulations.
    The change would likely have similar adverse consequences for the 
Armed Forces. With the knowledge that military service generally 
involves far greater risks of injury than civilian careers, that this 
increased risk of disability is borne by the servicemember personally 
rather than the Government, and that the Government will have no 
hesitation in sending the servicemember into perilous situations that 
expose the servicemember to all manner of known and unforeseen hazards, 
potential recruits would be wise to consider other alternatives to 
military service. Although it is not a primary concern of this 
Committee, it bears noting that this proposed change might cause 
substantial decline in military enlistments and reenlistments.
    This proposal to leave it to this Nation's sons and daughters to 
serve in our Armed Forces at their own risk is simply indefensible. It 
is a bad idea for numerous reasons. Its only object seems to be 
abrogation of the Government's responsibility to its servicemembers and 
veterans. We urge the members of this Committee to take the lead in 
opposing this ill-advised scheme.

    Chairman Specter. Our next witness is Mr. Carl Blake, 
Associate Legislative Director of the Paralyzed Veterans of 
America. Mr. Blake.

   STATEMENT OF CARL BLAKE, ASSOCIATE LEGISLATIVE DIRECTOR, 
                 PARALYZED VETERANS OF AMERICA

    Mr. Blake. Mr. Chairman, I would like to thank you for the 
opportunity to testify today on behalf of the Paralyzed 
Veterans of America.
    I would just like to say up front, I am going to agree with 
everything that my colleagues have said so far. We have always 
strongly supported concurrent receipt. However, we would 
certainly oppose any provision in legislation that would tie 
the payment of concurrent receipt to an offset against future 
veterans' disability benefits.
    This proposal would fundamentally change the way the VA 
determines who is service-connected disabled. I would like to 
tell you a quick story about a PVA member that we have that 
works in our national office. He was an Air Force colonel. He 
was out jogging one morning, as all military servicemen and 
women do. He fully believed in that concept that the military 
man or woman is a 24-hour-a-day, seven-day-a-week profession, 
and hence the reason he was conducting his physical fitness on 
his own time.
    While he was out that morning, it was believed he was 
intentionally hit by a van and that left him paralyzed from the 
neck down. With this proposed change, that individual and 
individuals like him would no longer be considered service-
connected disabled. I think that speaks for itself.
    Military service is unlike any other profession. We expect 
our men and women to sacrifice and die for this country, if 
necessary. We ask these men and women to serve this country on 
the promise that we will give them adequate pay and benefits 
and a comprehensive disability policy is the insurance policy 
that we provide these men and women. It is an insult to them 
for any member of Congress to consider changing the rules in 
the middle of the game that would deny them the value of this 
insurance policy.
    PVA is also very concerned about how it would affect how 
the VA provides health care to veterans. Currently, individuals 
that are presumed to be service-connected for such things as 
diabetes or post-traumatic stress disorder would be also left 
out in the cold.
    Again, I would just like to reiterate that we have always 
supported concurrent receipt. However, if it is based on paying 
for it with the reduction of benefits for future military 
retirees and veterans on the scale of millions of individuals, 
we would certainly oppose any provision in legislation which 
would do so.
    I would like to thank you for the opportunity again and I 
would be happy to answer any questions.
    Chairman Specter. Thank you very much, Mr. Blake. We have a 
few seconds left, so I will ask a question. Where is all that 
South in your voice from?
    Mr. Blake. I am from Virginia, Senator.
    Chairman Specter. Okay.
    Mr. Blake. In the dark still, too, Senator.
    [Laughter.]
    Chairman Specter. Our next witness is Mr. Richard Jones, 
National Legislative Director of the American Veterans, AMVETS. 
Thank you for joining us.

   STATEMENT OF RICHARD ``RICK'' JONES, NATIONAL LEGISLATIVE 
              DIRECTOR, AMERICAN VETERANS (AMVETS)

    Mr. Jones. Thank you, Chairman Specter. Thank you very much 
for the opportunity to present our strong objection to a draft 
plan that would dramatically limit the ability of future 
generations of veterans to qualify for service-connected 
benefits from the Department of Veterans Affairs.
    AMVETS, of course, would like to see Congress resolve the 
concurrent receipt issue. For more than a decade, our 
membership has sought a change in law forcing veterans who 
collect disability checks to deduct the money from their 
retirement pay. Military retirees should be able to receive 
both full benefits, as is the case with retirees from other 
Federal agencies.
    Clear majorities in the House and Senate have cosponsored 
legislation to correct this century-old policy and we thank 
you, Mr. Chairman, for your commitment and support of this 
issue and your support of veterans and their families.
    If we followed the House leadership plan, we would finance 
concurrent receipt for disabled veterans with monies resulting 
from the denial of disability compensation for those brave men 
and women in future military service. In our eyes, it is not in 
our nation's best interests to rob Peter to pay Paul. We do not 
wish to tie VA revision to correction of the concurrent 
receipt. We are greatly troubled that prior to your call, Mr. 
Chairman, no hearing had been held and no consultation 
attempted with the Department of Veterans Affairs about the 
ramifications of so draconian a limitation of the changes being 
proposed.
    In addition to all this that was mentioned before about 
this jogger, imagine the unlucky service member who would find 
difficulty gaining access to VA health care. Depending on means 
testing and whether the bar against Priority 8 veterans has 
been lifted or not, this injured veteran may find himself left 
to his own, crumpled on the street or dropped off at the family 
porch if he has a family, which we hope he would. Other 
Americans, we hope in a charitable fashion, would give him 
relief.
    Fortunately, it has been the tradition of the United 
States, a way of America and a way of our democracy, to care 
for those who defend freedom far off. And very frankly, if the 
driver of that car that hit this officer was not found, we 
really have no way of knowing whether the injuries were 
accidental or part of a terror target. Was the injury indeed 
part of his deployment?
    In addition, military retirees may suffer from arthritic 
conditions. You mentioned before about parachute jumps. We have 
Navy personnel standing on steel decks of aircraft carriers. 
This is not a condition that is healthy to knees and joints. 
Arthritic conditions may result from such service.
    Future determinations of military service-connected 
disability should not hang as a bargaining chip in an end game 
to negotiations on correcting concurrent receipt. One injustice 
should not replace another, and the issue is too complex to 
decide behind closed doors.
    Mr. Chairman, America is too great a nation for a decision 
making framework that resolves one injustice only to establish 
a second one in the next generation of veterans. We thank you 
for the opportunity to present our strong disagreement with 
this proposal and we appreciate your support. Thank you very 
much, Mr. Chairman.
    Chairman Specter. Thank you very much, Mr. Jones.
    [The prepared statement of Mr. Jones follows:]
               The Prepared Statement of Richard Jones, 
                 National Legislative Director, AMVETS
    Chairman Specter, Ranking Member Graham, and members of the 
Committee:
    Thank you for the opportunity to present our strong objection to a 
draft plan that would dramatically limit the ability of future veterans 
to qualify for service-connected benefits from the Department of 
Veterans Affairs.
    Mr. Chairman, AMVETS (American Veterans) has been a leader since 
1944 in helping to preserve the freedoms secured by America's Armed 
Forces. Today, our organization continues its proud tradition, 
providing, not only support for veterans and the active military in 
procuring their earned entitlements, but also an array of community 
services that enhance the quality of life for this nation's citizens.
    At this stage of the 108th Congress, the membership of AMVETS is 
seriously concerned over a House leadership compromise offered in early 
September to redefine military disability as part of changing current 
law on concurrent receipt. AMVETS is deeply troubled by this plan.
    AMVETS would like to see Congress resolve the concurrent receipt 
issue. For more than a decade, our membership has sought a change in 
current law requiring veterans who collect a disability check to deduct 
that money from their retirement pay. Military retirees should be able 
to receive both full benefits, as is the case for retirees from other 
federal agencies.
    We strongly support correction of this injustice. We believe it is 
a question of whether we as a nation will act responsibly and remember 
the veteran's sacrifice? Will we honor the brave and dedicated men and 
women who once wore the military uniform?
    We at AMVETS believe it would be unconscionable should we fail in 
that regard. And, we are pleased to see so many of our elected 
Representatives and Senators cosponsor legislation to end the wrongful 
policy of denying servicemembers injured in the line of duty their full 
retirement pay.
    On this date, as it was at the close of the last Congress, the 
issue of restoration of retired pay is prominent. Clear majorities in 
the House and Senate have cosponsored legislation to correct this 
century-old policy that denied veterans a portion of their military 
retired pay if they received service related disability compensation.
    We are pleased that a ``beachhead'' has been established that 
provides Purple Heart recipients and a number of veterans with combat-
related injuries a chance to receive their military retired pay and 
disability compensation in full.
    More needs to be done, however, and AMVETS calls on this Congress 
to set the matter right, once and for all--and allow disabled military 
retirees to receive full military retirement pay and the VA disability 
compensation to which they are entitled.
    The attempt on the part of House leadership to cloud the issue of 
providing full disability compensation to military retirees is clearly 
a cop-out. If leadership accurately reflected the priorities of our 
Congress, we would find the money to allow these dedicated service 
members to receive their earned retirement without it being reduced, 
dollar for dollar, by the amount of disability compensation they 
receive from the Department of Veterans Affairs.
    If we followed the House leadership plan, we would finance 
concurrent receipt for disabled retirees with monies ``saved'' from the 
denial of disability compensation to those brave men and women in 
future military service. In our eyes, the suggestion is both 
underhanded and detrimental to our nation's best interests. It is total 
nonsense to rob Peter to pay Paul.
    AMVETS is totally opposed to tying any revision in the current 
eligibility standards under which VA awards disability compensation, to 
a correction of this matter at hand. Amending these standards would not 
only be a poor excuse for dealing with the concurrent receipt issue, 
but worse yet, adversely affect hundreds of thousands of future 
service-connected disabled veterans and their families.
    In addition, we are greatly troubled that prior to your call, Mr. 
Chairman, no hearing has been held and no consultation has been 
attempted with the Department of Veterans Affairs about the 
ramifications of so dramatic a limitation of the changes being 
proposed.
    How would determinations be made about whether an injury or illness 
met the criteria of ``performance-based standards''? Would, for 
example, the injuries that occurred in the Khobar Towers explosions be 
classified as compensable. After all, these folks were not on duty, 
they were asleep in their bunks resting to prepare themselves for their 
next military duty. Also, what about the individual who after duty is 
run down by an automobile while jogging ``off-the-clock''? The intent 
of the servicemember may have been maintenance of physical readiness. 
But under the proposal, regardless of the extent of injury, the 
injuries would not be compensable because the accident did not occur in 
the performance of duty. Moreover, the unlucky servicemember may find 
difficulty gaining access to the VA healthcare system, depending on 
means testing and whether the bar against Priority 8 veterans is lifted 
or not. And very frankly, if the driver of the car is not found, we 
have no way of knowing whether the injuries were accidental or part of 
a terror target.
    In addition, military retirees may suffer from arthritic conditions 
that may be associated with long-term military duty, but not clearly 
marked by a specific incident. Such injury may occur as a result of 
multiple parachute jumps or years of duty on the steel deck of an 
aircraft carrier or other navy vessel. Also, future incidents of 
chemical exposures might find no relief for their unfortunate 
conditions should data not be found to find the nexus of incidence.
    The magnitude of changes contemplated by a hasty late-night 
decision could have far-reaching unintended consequences that no 
American leader should pursue without appropriate study and considered 
judgment.
    At an earlier time in history, one of our most revered leaders 
said, ``The willingness with which our young people are likely to serve 
in any war, no matter how justified, shall be directly proportional to 
how they perceive the veterans of earlier wars were treated and 
appreciated by their nation.''
    It is interesting today to gauge George Washington's observations 
against the plan we see linking reconciliation of concurrent receipt 
with future determinations of disability. While we believe it is 
critical to implement concurrent receipt, we find it totally demeaning 
to pit one group of disabled veterans against another.
    It occurs to me that our Founding Fathers understood more clearly 
than some of our current leaders that a grateful nation must keep faith 
with those who serve in the Armed Forces and its military retirees.
    Future determinations of military service-connected disability 
should not hang as a bargaining chip in an end game to negotiations on 
correcting concurrent receipt. One injustice should not replace 
another. And the issue is too complex to decide behind closed doors.
    AMVETS believes the proposed redefinition of VA compensation should 
not occur as an offset for correcting concurrent receipt. If the 
soundness of VA's methodology is in question, there should be answers 
to ensure its integrity. We do not believe, however, that the 
legitimate claims of a future generation of veterans should be cast 
aside to pay the legitimate claims of a past generation of veterans. 
America is too great a nation for a decision-making framework that 
resolves one injustice only to establish a second one on the next 
generation of veterans.
    Mr. Chairman, this concludes AMVETS testimony. Again, thank you for 
the opportunity to testify on this important matter, and thank you, as 
well, for your continued support of America's veterans.

    Chairman Specter. Our final witness is Mr. Rick Weidman, 
Director of Governmental Relations, Vietnam Veterans of 
America. Welcome, Mr. Weidman.

 STATEMENT OF RICK WEIDMAN, DIRECTOR OF GOVERNMENT RELATIONS, 
                  VIETNAM VETERANS OF AMERICA

    Mr. Weidman. Thank you very much, Mr. Chairman, and thank 
you for your bold leadership in stepping forward and holding 
this hearing on an emergency basis. Good leaders meet dire 
situations with immediate action and you have done so just by 
holding this hearing, sir.
    Let me state on the behalf of Vietnam Veterans of America 
that we are adamantly in favor of eliminating this tax on 
disabled veterans by means of passing concurrent receipt 
legislation currently being considered by the Congress. We are 
strenuously opposed to the cynical proposed change to who is a 
disabled veteran with no public notice, et cetera, and if I may 
associate myself, not just--I know my written remarks will be 
included in the record, but with the fine and eloquent 
statements of my colleagues to my right.
    There are a number of other things that haven't been 
mentioned that I would mention, and that is disabilities that 
are connected to toxicological exposures, disabilities that are 
exposure to, say, biological agents, to other things that only 
years later become known as exposures that caused these kinds 
of long-term chronic health care problems would all be wiped 
out and much of the fine work that has happened within this 
room over the past 25 years in regard to those toxicological 
exposures would be, in the stroke of a pen, wiped out.
    Lastly, and just as important as the ones I mentioned 
earlier, is sexual trauma. In 1992, Mr. Chairman, you presided 
over the historic hearings that led to the treatment, care, and 
benefits for sexual trauma victims in the military. With 24 
percent of our active duty military today women, to say that if 
something happens to them on a ship or a military post in a war 
zone, but it is not related to their military duties, in this 
case, sexual trauma, that they would not be justly compensated 
for it, and that is how this proposal would play out.
    Last, but not least, I want to just say that not only are 
we strongly in favor of concurrent receipt, but strongly 
against this proposal playing one generation of American 
veterans off against another. Our founding principle and the 
very first resolution ever passed by VVA at our founding 
convention, and reiterated at every convention since, is never 
again shall one generation of American veterans abandon 
another. This is just unconscionable to think that somehow you 
could get the veterans' community divided amongst itself and 
somehow punish our sons and daughters and our grandchildren and 
granddaughters who are serving in Iraq today in order to 
achieve justice for the earlier generations.
    One cannot help but have the cynical thought this is an 
attempt, with 370 to the concurrent receipt legislation in the 
House and with over 200 folks having signed the discharge 
petition, that somehow this is a cynical attempt to change the 
subject. In any case, this ill-advised proposal should be 
eliminated and a wooden stake driven through the heart forever.
    Mr. Chairman, I thank you again for the opportunity to 
appear here and for your strong leadership, sir.
    [The prepared statement of Mr. Weidman follows:]

    The Prepared Statement of Rick Weidman, Director of Government 
                 Relations, Vietnam Veterans of America
    Mr. Chairman and other distinguished members of the Committee, 
Vietnam Veterans of America (VVA) is pleased to have this opportunity 
to present our viewpoint on the proposals to limit eligibility for 
veterans' compensation benefits to disabilities directly related to 
``performance of duty'' (as narrowly defined) injuries only.
    We cannot emphasize this strongly enough: VVA is adamantly opposed 
to the proposed language in Section 652 of H.R. 1588, ``The FY04 
Defense Authorization Act.'' The proposed language would revise Titles 
10 and 38 of the United States Code to restrict veterans' eligibility 
to receive Department of Veterans Affairs' (VA) service-connected 
disability compensation based upon disease or injury sustained while 
serving on active duty in the military. Specifically, the proposal 
would limit payment of compensation to disabilities that are the 
``direct result of the performance of duty.'' The effect of this 
language would have enormous consequences for current and future 
members of the U.S. Armed Forces and their families, and flies in the 
face of our Nation's stated objective of ``supporting our troops.'' 
There is simply no other way to say it: This is an unprecedented and 
unconscionable breach of America's covenant to care for those who have 
borne the battle.
    Currently and historically, our government provides for the 
security and well-being of those who defend our country, those who risk 
life and limb, by affording them with health care and disability 
compensation when they are physically and/or emotionally diminished as 
the result of their active military service. Decades of experience have 
taught us that disease or injury incurred as a direct result of service 
may not manifest for years after the serviceperson's separation from 
active duty. Witness the devastating effects of environmental exposures 
(such as toxic gas, radiation and herbicidal agents), as well as the 
mandatory administration of pharmaceuticals (such as the anthrax 
vaccine and pyridostigmine bromide). Delayed onset of disabilities 
directly incurred as a consequence of military service is responsible 
for thousands of inappropriately denied claims for disability 
compensation, even under current law. Under the proposed standard of 
``direct result of official military duties,'' it will likely prove 
impossible for tens of thousands of deserving veterans to be made whole 
(or as close to whole as one can ever be made).
    Should the proposed language become law, service personnel would 
further lose the military equivalent of a workers' compensation 
program. The current service-connection standard also protects those 
individuals who become ill or are injured during active service (except 
in cases of willful misconduct), regardless of whether such illness or 
injury is the proximate result of the performance of their official 
duties or under a superior's lawful direct order. Congress adopted this 
standard for a reason. Pursuant to the Feres doctrine, military 
personnel have absolutely no recourse to the judicial system for 
essentially anything that happens to them in the military. As an 
illustration, under the proposed standard, if a soldier is tasked to 
build a brick wall as part his or her occupational duties and the wall 
collapses and crushes that soldier's leg, that individual would be 
eligible for VA health care for any resulting disability, and will be 
able to receive service-connected compensation upon separation from 
active duty. Now, suppose that same soldier, who is presumed to be on 
duty 24 hours a day, is walking along a base sidewalk and that same 
wall falls and injures that same leg, that troop will be eligible for 
neither post-service health care or disability compensation.
    Or consider sexual trauma. In 1992, Senator Specter presided over 
the historic hearings that led to the treatment, care, and benefits for 
sexual trauma victims. Women veterans who have been victimized by 
sexual trauma, assault, and abuse may have no one they feel they can 
confide in while on active duty. Years after their discharge, many 
still find it difficult to come forward to deal with the results of 
this trauma. Under this proposed legislation, sexual trauma would no 
longer be considered a line of duty disability.
    This is patently unjust and will send a clear and resounding signal 
to our troops and the American public that our government is, at best, 
indifferent and uncaring when it comes to the support of our troops. 
How anyone can claim to ``Support Our Troops!'' and advance such a 
proposal is beyond our comprehension.
    Moreover, given the demonstrated history of the VA to interpret 
statutes and regulations in a light most detrimental to the veteran, 
the potential for abuse of the proposed standard is staggering. One can 
easily envision wave upon wave of denied claims for survivors' benefits 
predicated upon findings that although there might be a concrete 
etiological relationship between a veteran's service-connected 
disability and a secondary condition that caused his or her death 
(think post-traumatic stress disorder and cardiovascular disease, 
respectively), the VA will likely conclude that the secondary condition 
was not caused by the ``direct performance of official military 
duties.'' Hence, the families of these veterans suffer their own 
injuries at the hands of their own government.
    It is no less important to note that the proposed language does not 
affect a basic tenet of VA law. Access to VA health care, often the 
only medical services available to a veteran, is generally predicated 
upon service-connected disability. Further, once enrolled in the VA 
health-care system, the availability of such care is determined by how 
severe such service-connected disability is rated. By limiting 
eligibility for service-connection, Congress is essentially condemning 
veterans who will be robbed of the eligibility that they are currently 
legally, and forever morally, entitled to when it comes to often life-
saving medical care.
    Congress cannot permit this to happen. With a new generation of men 
and women doing battle on the front lines of freedom, it is abhorrent 
to abandon them now. They will join their forebears of America's wars 
prior to World War II who have been shamefully treated by those whom 
they are sworn to protect and defend. Passage of the proposed 
legislation will only resurrect and perpetuate this sorry legacy, which 
will be recalled by those who are asked to serve in the future. This 
country cannot afford to abrogate its solemn obligation to protect our 
troops.
    Vietnam Veterans of America thanks this committee for the 
opportunity to present our views on this important matter and will be 
more than happy to answer any questions you may have.

    Chairman Specter. Thank you very much, gentlemen. I cannot 
recall hearing such unanimity, such forcefulness from six 
witnesses. One injustice for a greater injustice, draconian, 
these notes are going to be something to be viewed in a 
historical perspective. I think you have made an overwhelming 
case today and I am with you. Thank you.
    The hearing is adjourned.
    [Whereupon, at 3:29 p.m., the hearing was adjourned.]




                            A P P E N D I X

              The Prepared Statement of Hon. Bob Graham, 
                       U.S. Senator from Florida

    I would like to thank Chairman Specter for holding this 
very important hearing on ``Limiting Eligibility for Veterans 
Disability Compensation to Offset the Cost of Concurrent 
Receipt.''
    Mr. Chairman at the outset of my statement, I would like to 
ask two simple questions. Who authored this proposal? Why isn't 
the author of this plan testifying before the Committee today?
    Clearly, this proposal was thrown together without the 
review of this committee. The Chairman hasn't seen it, and 
neither have I. No bill has been introduced. No hearings have 
been held. This proposal was thrown together at the eleventh 
hour, with no real scrutiny, but is now being considered as 
part of the Defense Authorization Conference.
    Setting the lack of procedure aside, we must discuss the 
merits of this proposal, given the fact that some apparently 
want to see it become public law. For starters, this proposal 
is a radical departure from the current compensation system, 
and it would fundamentally alter its basic elements. How would 
it do so? By severely curtailing what constitutes a ``service-
related injury,'' effectively cutting off almost two-thirds of 
future veterans from being eligible for disability 
compensation. While this plan would allow full concurrent 
receipt for some retirees who are receiving benefits today, the 
cost would be incurred by those who may need disability 
benefits in the future.
    The proposal should be more aptly called a ``scheme'' 
resulting from the Administration's inertia in providing full 
concurrent receipt. In 2001 and 2002, the Senate included full 
concurrent receipt in the Defense Authorization Bill, despite 
the Administration's vocal objection to the policy and threats 
of veto. This year, the Administration has once again 
threatened to veto the bill if full concurrent receipt is 
included in the final bill. In fact, Secretary Rumsfeld, in his 
July 8 letter to Chairman Warner, opposed authorizing 
concurrent receipt saying ``these unfunded entitlements would 
drain resources from important programs benefiting our 
military.'' This demonstrates how the Administration has 
repeatedly turned a blind eye to our nation's veterans. To 
circumvent this veto threat, this unworkable compromise, the 
one that is the subject of today's hearing, was apparently 
proposed to get the Administration out of a mess. In reality, 
it is a cure that is probably worse than the disease itself.
    Trying to limit service connection to job related injuries 
is highly problematic when you consider that serving in the 
military is unlike any other job. Our service members are on 
the job twenty-four hours a day, conducting a wide range of 
activities to ensure that our nation is safe. By changing the 
definition of service-related injury, only men and women who 
are injured under the limited new criteria of ``military duty'' 
would be eligible for disability compensation--this could 
exclude Marines such as those who were recently diagnosed with 
malaria or even those that discover ailments many years later 
that may have been a result of their military service, like 
those who served in the first Gulf War. And this is frankly, 
unfair. We are asking these men and women to make daily 
sacrifices and even to risk their lives in support of our 
nation. Serving in our armed forces is not just a job, it is a 
profession--a way of life, and we must treat our service 
members accordingly.
    The proposal being discussed today would also impose a 
significant barrier to VA's ability to decide veterans' claims 
in a timely and accurate manner. VA would be forced to 
implement two systems simultaneously, the one being discussed 
today and another under the old rules. This would come at a 
time when VA is just beginning to recover from a staggering 
backlog of claims, where veterans still wait as long as 184 
days for an initial decision, which is already far too long.
    Moreover, this change in law would have a true ripple 
effect, potentially affecting veterans' ability to receive 
benefits that are based upon service-connected status, such as 
VA health care. This injustice is not limited to veterans. The 
families of certain troops who die while serving on active duty 
would be barred from receiving compensation, education and 
health care benefits from either VA or DoD. Ultimately, this 
proposal would have the disastrous effect of denying 
compensation to veterans injured while in service and their 
survivors.
    Hundreds of men and women will be returning from operations 
in Iraq and Afghanistan with disabilities, many that may not be 
directly attributable to the conflict. Under today's proposal, 
they likely would be ineligible for disability compensation. 
What kind of message does this send to our troops who are 
risking their lives everyday? Before we rush to change long-
standing eligibility requirements, we must consider the 
ramifications of this proposal and recognize that this is the 
wrong solution to a very complex challenge.
                              ----------                              


            The Prepared Statement of Hon. Daniel K. Akaka, 
                        U.S. Senator from Hawaii

    Thank you, Mr. Chairman. I'd like to take this opportunity 
to express my appreciation and welcome the witnesses who are 
here for this afternoon's hearing. I am a strong supporter of 
full concurrent receipt and appreciate the efforts to repeal 
the prohibition against concurrent receipt led by my friend and 
colleague, Senator Harry Reid.
    I appreciate that the VA has difficult and unpopular 
decisions to make due to the fiscal limitations imposed on the 
agency. However, I remain firm in my belief that we must 
utilize our resources to maintain our commitment to the men and 
women who have fought to defend our great nation.
    As a member of the Senate Committees on Armed Services, 
which is considering this issue in conference, and the 
Veterans' Affairs Committee, services and benefits to military 
members and veterans are of significant concern to me. As the 
Ranking Member of the Senate Armed Services Readiness and 
Management Support Subcommittee, it is my responsibility to 
ensure that our military members are provided with the 
appropriate training and equipment to successfully accomplish 
their mission.
    In addition to the current emphasis on recruitment and 
retention in our military, I continuously tell our military 
leaders that we must add another ``R,'' which is retirement. In 
order to recruit and retain quality soldiers, sailors, airmen 
and Marines, we must pay attention not only to the present, but 
also to the future. For many of our veterans that future is 
now, and our current military members are watching closely to 
see if we maintain our commitment to those who have sacrificed 
so much to defend the United States. Our actions today will 
certainly impact our Armed Forces in the future.
    I look forward to our discussion this afternoon and to 
working with my colleagues to make full concurrent receipt a 
reality for our veterans.
                              ----------                              


              The Prepared Statement of Hon. Zell Miller, 
                       U.S. Senator from Georgia

    Thank you, Mr. Chairman, and I commend you for convening a 
hearing to examine this very important subject.
    One of the most pressing matters facing Congress today is 
the inequity experienced by military retirees who collect 
disability compensation. As I'm sure everyone here is aware, 
veterans across the country have now nicknamed concurrent 
receipt ``the disabled veterans' tax.'' And that's just what it 
is--a tax on those who defend our nation and become injured in 
the line of duty.
    For me, concurrent receipt is simply an equity issue. VA 
disability payments and military retirement pay are two 
separate payments for two separate situations. When a service-
member retires from the military, we provide a pension. When a 
service-member is disabled while serving our country, we 
support that individual with disability compensation.
    Retirement pay is earned for a career of service and 
sacrifice in uniform. The other is compensation for the impact 
of a service-connected disability on future life and earning 
power. For those who made a career in the military and suffered 
injury as a result of their service, they should collect both 
payments in full. There should be no deduction from the 
combined amount of their disability compensation and military 
retirement pay.
    Of 1.4 million military retirees nationwide, approximately 
670,000 have been categorized as disabled by the Veterans 
Administration. These disabled military retirees receive $2.2 
billion a year from the VA in disability compensation and they 
must pay for it out of their earned military retirement pay. 
Many of these disabled retirees, particularly Noncommissioned 
Officers and Warrant Officers, are forced to forfeit their 
entire military retired pay and have nothing to show for a 
career of service to their nation except a disability and its 
small compensation.
    This issue has never been more important than right now 
when American service members risk their lives and physical 
well-being each day fighting for our country in Iraq and 
Afghanistan. Our support for them must continue when they 
return home. I strongly believe that we must provide full 
concurrent receipt benefits, and ensure that our veterans and 
military retirees have a standard of living they deserve.
    As I conclude my statement, I'm reminded of a speech by 
General Douglas McArthur in which he said, ``Old soldiers never 
die, they just fade away.'' But disabled veterans are dying at 
a rate of 1,000 per day. They die waiting for a 100-year-old 
injustice to be corrected, an injustice that prohibits them 
from collecting both the retirement pay they earned for their 
years of military service and the VA disability compensation 
for injuries or illnesses during their service to this country.
    Who will fight our wars in the future if we don't prove we 
will take care of the veterans today? This issue has gone on 
long enough without resolution.
    Thank you, Mr. Chairman.
                              ----------                              


              The Prepared Statement of Hon. Jim Bunning, 
                       U.S. Senator from Kentucky

    Thank you, Mr. Chairman.
    I appreciate you holding this hearing today. Concurrent 
receipt is an important issue that has been before Congress for 
many years now. Last year we enacted a very limited concurrent 
receipt proposal to provide increased benefits to our most 
severely injured war veterans. This year even larger proposals 
are on the table.
    Mr. Chairman, I share your concerns about proposals 
reportedly being considered for enactment this year. Any 
concurrent receipt proposal that increases benefits to one 
group of veterans while decreasing benefits to another is 
unfair. We should not be placed in a position to pick and 
choose between veterans.
    I am anxious to hear from the panels here today. A public 
discussion on veterans' benefits will be healthy for this 
Committee and for the entire debate on concurrent receipt. We 
must be informed and move deliberately when considering 
proposals that could impact millions of our veterans and change 
the benefit structure in place for so many years.
    After witnessing implementation of last year's limited 
concurrent receipt benefit, we must be very careful about 
limiting eligibility for benefits to performance-of-duty or 
combat-related injuries. Such eligibility may be impossible for 
a veteran to prove. The Department of Defense and the VA have 
made great strides in improving information sharing and data 
collection, but many records never have and never will exist 
and others have been lost or destroyed.
    Again, I am quite concerned about the unintended 
consequences of concurrent receipt proposals currently being 
considered. I hope this hearing can address some of those 
concerns.
    Thank you, Mr. Chairman.
  

                                  <all>

</pre></body></html>
